Supreme Court, U.S.
FILED

WAIVER

SEP 2 6 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-5567

Linda Ames

V.

HSBC Bank USA

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

El

Please enter my appearance as Counsel of Record for all respondents.

0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed bye Bar member.
Signature

ferierki be/ 25 2+00e)

Date•

(Type or print) Name

Justin T. Jastrzebski
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Anglin Flewelling Rasmussen LLP

Address

701 Pike Street, Suite 1560

City & State
Phone

Seattle, WA

(206) 264-5905

Zip
Email

98101

jjastrzebski@afrct.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Linda Ames

RECEIVED

OCT - 6 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

